No. 19-7

IN THE

Supreme Court of the Anited States

SEILA LAw LLC,

Petitioner,
v.

CONSUMER FINANCIAL PROTECTION BUREAU.
WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Consumer Bankers Association In Support Of Neither Party contains 6,239
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under the penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2019.

 

nathan S. Franklin

ORTON ROSE FULBRIGHT US LLP
799 9th Street, N.W., Suite 1000
Washington, D.C. 20001
(202) 662-0466

Counsel for Amicus Curiae
Consumer Bankers Association
